No. ________

In The

Supreme Court of the United States
FRANCISCO RODRIGUEZ-CASTRO,
Petitioner,

V.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
APPENDIX

Hans Viktor Olavson
PO Box 26339
Austin, Texas 78755
(512) 472-8392
Email: viktorolavson@gmail.com
Bar Number 313382
Counsel of Record for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals
for the Fifth Circuit in USA v. RodriguezCastro, filed June 4, 2020 ........................................ A1
Order of the United States District Court for
the Western District of Texas, MidlandOdessa Division in Rodriguez-Castro v. USA,
entered October 26, 2017 ......................................... A7
Inmate Filing: Motion for New Counsel and
Motion for Leave to Proceed in Forma
Pauperis, filed July 7, 2016 ................................... A20
U.S. Const. amend. V ............................................. A22
28 U.S.C. § 2255 ..................................................... A22
U.S.S.G. § 4B1.1 ..................................................... A24

A1
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
No. 17-50989
Filed June 4, 2020
UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
FRANCISCO RODRIGUEZ-CASTRO,
Defendant-Appellant
Appeal from the United States District Court
for the Western District of Texas
USDC No. 7:16-CV-255
Before JOLLY, GRAVES, and DUNCAN, Circuit
Judges.
PER CURIAM:*
Francisco Rodriguez-Castro, federal inmate #
56468-280, appeals the district court’s denial of his
motion to vacate his sentence under 28 U.S.C. §
2255. We affirm.
FACTS AND PROCEDURAL HISTORY
Rodriguez-Castro pleaded guilty to conspiracy to
possess with intent to distribute fifty grams or more
of methamphetamine. Pursuant to his plea,
Rodriguez-Castro agreed to an appeal waiver,
including a waiver of his right to challenge his
____________________
* Pursuant to 5TH CIR. R. 47.5, the court has determined
that this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.

A2
conviction in a collateral proceeding, but reserved
the right to raise claims of ineffective assistance of
counsel and prosecutorial misconduct. Relying on the
presentence report, the district court sentenced
Rodriguez-Castro as a career offender under
U.S.S.G. § 4B1.1 based on his prior drug
convictions.1 The career offender designation
produced an advisory sentencing guidelines range of
262 to 327 months. Without the career offender
designation, Rodriguez-Castro’s sentencing
guidelines range would have been 135 to 168
months. The court sentenced Rodriguez-Castro to
262 months and five years of supervised release, a
sentence at the bottom of the range for career
offenders and well below the statutory maximum
sentence of life imprisonment.
On direct appeal, Rodriguez-Castro’s counsel
moved for leave to withdraw and filed a brief in
accordance with Anders v. California, 386 U.S.
738 (1967), asserting that there was no non-frivolous
issue for appeal and that the government intended to
enforce the appeal waiver. This court granted
counsel’s motion to withdraw and dismissed the
appeal on April 20, 2016. See United States v.
Rodriguez-Castro, 646 F. App’x 361, 361-62 (5th Cir.
2016).
Under U.S.S.G. § 4B1.1, courts apply the career offender
sentencing enhancement to certain defendants who have “at
least two prior felony convictions of either a crime of violence or
a controlled substance offense.” Id. Here, one of RodriguezCastro’s two predicate convictions was a federal offense for
possessing with intent to distribute cocaine and cocaine base.
The other predicate conviction arose under TEXAS HEALTH &
SAFETY CODE § 481.112(a), which provides that an offense is
committed “if [a] person knowingly manufactures, delivers, or
possesses with intent to deliver a controlled substance.” Id.
1

A3
On June 23, 2016, the United States Supreme
Court decided Mathis v. United States, 136 S. Ct.
2243 (2016), which clarified the rules courts use to
determine whether state criminal statutes fall
within generic categories created by federal law. Id.
at 2256-57. In subsequent decisions, our court has
applied Mathis to conclude that convictions under
TEXAS HEALTH & SAFETY CODE § 481.112(a) are
not “controlled substance offense[s]” under U.S.S.G.
§ 4B1.1. United States v. Hinkle, 832 F.3d 569, 576–
77 (5th Cir. 2016); United States v. Tanksley, 848
F.3d 347, 352 (5th Cir. 2017).
On June 30, 2016, which was within the ninetyday time-period for petitioning the Supreme Court
for a writ of certiorari on direct appeal, RodriguezCastro filed a pro se motion under 28 U.S.C. § 2255
challenging his career offender designation.
Rodriguez-Castro also unsuccessfully moved the
district court for appointment of counsel. Through
counsel obtained on his own, Rodriguez-Castro’s
motion was later amended to assert that the district
court erred in designating him as a career offender
because his prior Texas drug offense no longer
qualified as a predicate controlled substance offense
under Mathis and Hinkle, and that counsel was
ineffective for failing to object to the use of the Texas
offense in support of the guidelines career offender
designation. The district court denied RodriguezCastro’s motion and denied a certificate of
appealability (COA).
This court subsequently granted a COA on the
issue of whether the “miscarriage of justice”
exception under United States v. Vaughn, 955 F.2d
367 (5th Cir. 1992), applies in light of the unique
timing of the various events of Rodriguez-Castro’s

A4
case. Id. At 368 (“Relief under . . . § 2255 is reserved
for transgressions of constitutional rights and for a
narrow range of injuries that could not have been
raised on direct appeal and would, if condoned,
result in a complete miscarriage of justice.”); see also
Conley v. United States, 137 S. Ct. 153 (2016).
STANDARD OF REVIEW
In considering the denial of relief under § 2255,
this court reviews the district court’s factual findings
for clear error and questions of law de novo. See
United States v. Williamson, 183 F.3d 458, 461 (5th
1999).
DISCUSSION
Nonconstitutional claims are only cognizable
under § 2255 if they stem from injuries “that could
not have been raised on direct appeal and would, if
condoned, result in a complete miscarriage of
justice.” Vaughn, 955 F.2d at 368. In his § 2255
proceeding, Rodriguez-Castro raised a
nonconstitutional claim by challenging his
sentencing as a career offender under the advisory
Sentencing Guidelines based on cases, including
Mathis, that issued after we dismissed his direct
appeal as frivolous. Even if Rodriguez-Castro could
not have asserted his instant challenge to the
district court’s application of the Sentencing
Guidelines on direct appeal, he has not shown that
his career offender designation raises a cognizable
claim of a fundamental defect resulting in a complete
miscarriage of justice. See United States v. Capua,
656 F.2d 1033, 1037 (5th Cir. Unit A 1981); see also

A5
United States v. Cervantes, 132 F.3d 1106, 1109 (5th
Cir. 1998). Rodriguez-Castro received a 262-month
sentence, which is below the statutory maximum
term of life imprisonment. Even if he is no longer a
career offender under the Guidelines, which are
advisory, see United States v. Clay, 787 F.3d 328, 331
(5th Cir. 2015), he has not shown that his sentence is
unlawful or was invalid at the time it was entered,
see United States v. Addonizio, 442 U.S. 178, 185-87
(1979); United States v. Towe, 26 F.3d 614, 616 (5th
Cir. 1994); Dozier v. U.S. Dist. Court for Northern
Dist. of Florida, 656 F.2d 990, 992 (5th Cir. Unit B
1981); see also § 2255(a).
Furthermore, although Mathis issued within the
ninety-day period for seeking a writ of certiorari
after the dismissal of Rodriguez-Castro’s direct
appeal, and although Rodriguez-Castro sought and
was denied counsel during that ninety-day period, he
had no right to counsel to file a petition for a writ of
certiorari. See Wainwright v. Torna, 455 U.S. 586,
586 (1982). Moreover, he elected not to petition, pro
se, for a writ. Thus, as to the timing of his direct
appeal and his efforts to obtain counsel while his
direct appeal was still viable, Rodriguez-Castro has
not shown any purported violation much less a
violation rising to the level of a complete miscarriage
of justice. See Capua, 656 F.2d at 1037.
To the extent that Rodriguez-Castro seeks to
raise an independent claim of ineffective assistance
of counsel, it is beyond the scope of the issue on
which his COA was granted. See United States v.
White, 307 F.3d 336, 339 n.1 (5th Cir. 2002). In any
event, counsel does not have a duty to anticipate
changes in the law or to raise claims that this court

A6
has rejected. See United States v. Fields, 565 F.3d
290, 294-95 (5th Cir. 2009).
For these reasons, the district court’s judgment
denying Rodriguez-Castro’s Amended Motion to
Correct Sentence Pursuant to 28 U.S.C. § 2255 is
AFFIRMED.

A7
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
MIDLAND-ODESSA DIVISION
MO-16-CV-00255-RAJ
MO-15-CR-00027(1)-RAJ
FRANCISCO RODRIGUEZ-CASTRO
V.
UNITED STATES OF AMERICA
ORDER
Before the Court are Movant Francisco
Rodriguez Castro’s Motion to Vacate, Set Aside, or
Correct Sentence Under 28 U.S.C. § 2255 (Docket
Entry “DE” 85), his Amended Motions to Vacate, Set
Aside, or Correct Sentence Under 28 U.S.C. § 2255
(DE 87 & DE 93), the Government’s Response (DE
98), and Movant’s Reply (DE 99). Movant is
represented by counsel in this matter. For the
following reasons, the § 2255 motion is denied.
BACKGROUND
A grand jury indictment returned January 28,
2015, charged Movant and a codefendant with
conspiracy to possess with the intent to distribute
and distribution of actual methamphetamine, in
violation of 21 U.S.C. §§ 841(a)(1) and 846. (DE 23).
The quantity of actual methamphetamine involved

A8
in the conspiracy and attributable to Movant was 50
grams or more. Id. Movant was appointed counsel to
represent him in his criminal proceedings. (DE 2).
On March 19, 2015, pursuant to a written plea
agreement, Movant entered a guilty plea to the
charge stated in the indictment. (DE 39; DE 41; DE
47). In the written plea agreement Movant waived
his right to appeal his conviction and sentence, and
waived his right to collaterally attack his conviction
and sentence other than to assert a claim of
ineffective assistance of counsel or prosecutorial
misconduct. (DE 41 at 7).
The written plea agreement contained a
statement of facts, which included the following:
During the month of January 2015, Drug
Enforcement Administration - Midland
Resident Office (MRO) personnel received
information from a Source of Information
(SOI) about Francisco RODRIGUEZCASTRO being a methamphetamine
distributor operating in West Texas. Based
on this information during the month of
January 2015, MRO personnel utilized an
Undercover Agent (UC) to make contact with
RODRIGUEZ-CASTRO . . . The UC spoke to
RODRIGUEZ-CASTRO about the purchase
of one (1) kilogram of methamphetamine to
one (1) pound of methamphetamine and
stated that he (RODRIGUEZ-CASTRO)
would contact the UC on January 8, 2015.
On January 8, 2015, MRO personnel
utilized the UC who placed and received
multiple cellular phone calls from
RODRIGUEZ-CASTRO who stated that he

A9
(RODRIGUEZ-CASTRO) would meet the UC
in Midland, Texas at the Wal-Mart located
on I-20 and Big Spring, Midland, Texas.
RODRIGUEZ-CASTRO stated that he
(RODRIGUEZ-CASTRO) would be in a black
vehicle. MRO personnel established
surveillance and a black Infiniti passenger
car with two (2) occupants, one identified to
be RODRIGUEZ-CASTRO with Texas
registration BWG6109 arrived at the Wal
Mart. RODRIGUEZ-CASTRO exited the
vehicle and met with the UC. RODRIGUEZCASTRO stated that he (RODRIGUEZCASTRO) did not have the
methamphetamine on him (RODRIGUEZCASTRO) but that his partner had it. The
UC and RODRIGUEZ-CASTRO agreed to
meet at a secondary meet location.
A short time later at the second meet
location RODRIGUEZ-CASTRO arrived as
the passenger of the black Infiniti. The UC
met with RODRIGUEZ-CASTRO at the front
passenger window. Based on electronic
surveillance the UC was able to view
suspected methamphetamine in the driver’s
lap. The UC then contacted Agents and
advised them (Agents) that RODRIGUEZCASTRO and the driver had the
methamphetamine. MRO personnel then
executed the arrest of RODRIGUEZCASTRO and the driver identified to be
David IRUEGAS. During the subsequent
search of the vehicle SA Olberding located
and seized approximately 226 gross grams of
methamphetamine (well over 50 grams [of]

A10
methamphetamine) and [a] cellular phone . . .
from RODRIGUEZ-CASTRO.
(DE 41 at 2-3). After Movant received his Miranda
warnings, he told law enforcement he had recruited
and paid his codefendant, Mr. Iruegas, to drive
Movant to Midland for the purpose of conducting the
drug transaction. (DE 61 at 4).
After conducting a Rule 11 hearing, the
Magistrate Judge made findings of fact and
recommended the Court accept Movant’s guilty plea.
(DE 42). The Court accepted Movant’s guilty plea on
April 14, 2015. (DE 50). A Presentence Investigation
Report (“PSR”) was prepared. (DE 57; DE 61). The
PSR calculated Movant’s Base Offense Level at 32,
and added two points because Movant was an
organizer, leader, manager, or supervisor in the
criminal activity, arriving at an adjusted offense
level subtotal of 34. (DE 61 at 5). However, the PSR
then determined that Movant was a career offender,
and assessed his offense level as 37. Id. The PSR
then subtracted three points for Movant’s acceptance
of responsibility, arriving at a total offense level of
34. Id. The PSR noted Movant’s 2010 conviction by a
Texas state court of possession with the intent to
deliver marijuana and cocaine, for which he was
sentenced to two years’ imprisonment. (DE 61 at 8).
The PSR also noted Movant’s conviction by the
United States District Court for the Western District
of Texas on a charge of possession with the intent to
distribute cocaine, for which he was sentenced to a
term of 41 months’ imprisonment and three years of
supervised release. (DE 61 at 9). The PSR noted
Movant’s supervised release had been revoked twice,
most recently on March 6, 2014. Id. The PSR

A11
calculated Movant’s criminal history score as seven,
resulting in a criminal history category of IV, but
further determined that, because Movant was a
career offender, his final criminal history category
was VI. (DE 61 at 10). The PSR noted the statutory
minimum term of ten years’ imprisonment and
calculated a sentencing guideline range of 262 to 327
months’ imprisonment. (DE 61 at 14).
At Movant’s sentencing, the Court elicited from
Movant an admission that he had previously been
convicted by a state court for possession with intent
to deliver a controlled substance, and that he had
previously been convicted by the federal court of
possession with the intent to distribute cocaine. (DE
80 at 5-6). The Court noted that, “by having those
two convictions,” Movant was a “career criminal
under the statute.” (DE 80 at 6). At Movant’s
sentencing his counsel noted that, if not for Movant’s
career offender status, his guideline sentencing
range would be 135 to 168 months’ imprisonment.
Counsel asked the Court to impose a sentence below
the guideline range, noting the predicate prior
convictions occurred when Movant was 18 and 19
years of age. (DE 80 at 9-10).
On June 8, 2015, Movant was sentenced to a
term of 262 months’ imprisonment and five years of
supervised release. (DE 65). Notwithstanding his
waiver of his right to an appeal, Movant filed a
notice of appeal and was appointed appellate
counsel. (DE 70; DE 73). Movant’s appellate counsel
filed an Anders brief, to which Movant did not
respond. (DE 84 at 2). The Fifth Circuit Court of
Appeals dismissed the appeal as frivolous on April
20, 2016. (DE 84).

A12
In his initial one-page section 2255 motion,
Movant sought relief pursuant to “Johnson-Welch”
and asserted his sentence was improperly enhanced
as a result of his prior drug convictions. (DE 85).1
Counsel for Movant filed an appearance on February
24, 2017. (DE 92). Movant’s counsel filed an
amended section 2255 motion, asserting Movant’s
sentence must be vacated pursuant to the holding in
United States v. Mathis, 136 S. Ct. 2243 (2016), and
United States v. Hinkle, 832 F.3d 569 (5th Cir. 2016).
Counsel contends the failure to object to the use of
Movant’s 2010 Texas state conviction to establish
Movant as a career offender constituted ineffective
assistance of trial and appellate counsel. (DE 93).
In response to the section 2255 motion, the
Government argues neither Mathis nor Hinkle
provides relief to Movant as these decisions are not
retroactive to section 2255 claims on collateral
review. (DE 98 at 4-5). Respondent further contends
Movant was not denied his right to the effective
assistance of counsel. (DE 98 at 5-13).

In an order (DE 94) entered May 16, 2017, the Court stated:
The Federal Public Defender has notified the Court that
Defendant is not eligible for relief under Johnson v. United
States, 135 S. Ct. 2551 (2015). Defendant was sentenced under
the United States Sentencing Guidelines and was not
sentenced under the Armed Career Criminal Act. Pursuant to
Beckles v. United States, 137 S. Ct. 886 (2017), the Guidelines
are not subject to vagueness challenges under the Due Process
Clause. Accordingly, the Court exempts this case from the
Standing Appointment Order filed on April 15, 2016.
1

A13
ANALYSIS
A. Legal Standard
A federal defendant may move to vacate, set
aside, or correct his sentence if: (1) the imposition of
the sentence was in violation of the Constitution or
the laws of the United States; (2) the District Court
that imposed the sentence lacked jurisdiction; (3) the
sentence imposed was in excess of the maximum
authorized by law; or (4) the sentence is otherwise
subject to collateral attack. 28 U.S.C. § 2255; United
States v. Placente, 81 F.3d 555, 558 (5th Cir. 1996).
B. Merits
1. Applicability of United States v. Mathis
and United States v. Hinkle
Movant attacks the Court’s application of
U.S.S.G. §4B1.1, asserting his prior Texas statecourt conviction for possession with the intent to
deliver marijuana and cocaine, in violation of Texas
Health and Safety Code § 481.112(a), could not be
used to qualify him as a career offender under the
United States Sentencing Guidelines, citing United
States v. Mathis, 136 S. Ct. 2243 (2016) (decided
June 23, 2016), and United States v. Hinkle, 832
F.3d 569 (5th Cir. 2016) (decided August 11, 2016).
Movant may not raise this issue in a collateral
attack. Section 2255 motions may raise only
constitutional errors and other injuries that could
not have been raised on direct appeal that will result
in a miscarriage of justice if left unaddressed. United
States v. Faubion, 19 F.3d 226, 233 (5th Cir. 1994);

A14
United States v. Vaughn, 955 F.2d 367, 368 (5th Cir.
1992). A District Court’s application of the United
States Sentencing Guidelines’ criteria to determine a
sentence does not fall into either category and is not
cognizable in § 2255 action. United States v.
Williamson, 183 F.3d 458, 461-62 (5th Cir. 1999);
United States v. Segler, 37 F.3d 1131, 1134 (5th Cir.
1994); Faubion, 19 F.3d at 233. The federal Circuit
Courts of Appeal have consistently held “that
ordinary questions of guideline interpretation falling
short of the ‘miscarriage of justice’ standard do not
present a proper section 2255 claim.” United States
v. Williamson, 183 F.3d 458, 462 (5th Cir. 1999);
United States v. Pregent, 190 F.3d 279, 284 (4th Cir.
1999); Auman v. United States, 67 F.3d 157, 161 (8th
Cir. 1995).
Section 2255 “was intended to afford federal
prisoners a remedy identical in scope to federal
habeas corpus.” Davis v. United States, 417 U.S. 333,
343 (1974). Like habeas corpus, the section 2255
remedy “does not encompass all claimed errors in
conviction and sentencing.” United States v.
Addonizio, 442 U.S. 178, 185 (1979). The permissible
scope of a section 2255 attack on a final conviction or
sentence is severely limited; “an error of law does not
provide a basis for collateral attack unless the
claimed error constituted ‘a fundamental defect
which inherently results in a complete miscarriage
of justice.’” Id., quoting Hill v. United States, 368
U.S. 424, 428 (1962). The federal Circuit Courts of
Appeal have consistently held “that ordinary
questions of guideline interpretation falling short of
the ‘miscarriage of justice’ standard do not present a
proper section 2255 claim.” United States v.
Williamson, 183 F.3d 458, 462 (5th Cir. 1999);

A15
Auman v. United States, 67 F.3d 157, 161 (8th Cir.
1995); United States v. Pregent, 190 F.3d 279, 284
(4th Cir. 1999). A sentence is not “illegal” unless it
exceeds the statutory maximum for the offense of
conviction. United States v. Addonizio, 442 U.S. 178,
186, (1979); Spencer v. United States, 773 F.3d 1132,
1140-41 (11th Cir. 2014); Sun Bear v. United States,
644 F.3d 700, 705 (8th Cir. 2011); United States v.
Peterman, 249 F.3d 458, 462 (6th Cir. 2001)
(“[C]ourts have generally declined to collaterally
review sentences that fall within the statutory
maximum.”).
Because a claim that the United States
Sentencing Guidelines were improperly applied to a
defendant is not cognizable in a section 2255 action,
and Movant was sentenced within the statutory
range for his crime of conviction, Movant is not
entitled to relief on this claim.2
2. Ineffective assistance of trial and
appellate counsel
A section 2255 movant’s claim of ineffective
assistance of counsel does give rise to a
Additionally, the Supreme Court noted in Mathis, decided
June 23, 2016, after Movant’s conviction became final, that it
was not announcing a new rule of constitutional law retroactive
to cases on collateral review. The Fifth Circuit Court of Appeals
has held that Mathis did not announce a new rule of
constitutional law that has been made retroactive to cases on
collateral review. See United States v. Samarripa, ___ Fed.
App’x ___, 2017 WL 4071130 (5th Cir. Sept. 13, 2017); In re
Lott, 838 F.3d 522, 523 (5th Cir. 2016) (denying authorization
to file a successive section 2255 application because Mathis did
not set forth a new rule of constitutional law made retroactive
to cases on collateral review).

2

A16
constitutional issue and is cognizable pursuant to
section 2255. United States v. Walker, 68 F.3d 931,
934 (5th Cir. 1996). To successfully state an
ineffective assistance of counsel claim, a section 2255
movant must demonstrate counsel’s performance
was deficient and that the deficient performance
prejudiced his defense. Strickland v. Washington,
466 U.S. 668, 687 (1984); United States v. Hayes, 532
F.3d 349, 353 (5th Cir. 2008). Unless a movant
establishes both deficient performance and
prejudice, his ineffective assistance of counsel claim
fails. United States v. Bass, 310 F.3d 321, 325 (5th
Cir. 2002). The burden of proof is on the movant who
is alleging ineffective assistance of counsel. United
States v. Chavez, 193 F.3d 375, 378 (5th Cir. 1999).
The allegations of ineffective assistance of counsel
must be supported by the record. United States v.
Johnson, 679 F.2d 54, 58-59 (5th Cir. 1982).
To show that his attorney’s performance was
deficient, Movant must show that counsel’s
representation fell below an objective standard of
reasonableness and that counsel made errors so
serious that he was not functioning as the counsel
guaranteed by the Sixth Amendment. United States
v. Kayode, 777 F.3d 719, 723 (5th Cir. 2014).
Counsel’s failure to raise an obviously meritless
objection is not deficient performance. United States
v. Kimler, 167 F.3d 889, 893 (5th Cir. 1999).
Counsel’s strategic decisions, when supported by the
circumstances, such as a court’s prior rejection of a
particular defense, are objectively reasonable and do
not amount to unconstitutionally deficient
performance. United States v. Jones, 287 F.3d 325,
331 (5th Cir. 2002).

A17
In United States v. Ford, 509 F.3d 714 (5th Cir.
2007), the Fifth Circuit Court of Appeals held that a
conviction for violation of Texas Health and Safety
Code § 481.112(a) fell within the United States
Sentencing Guidelines’ definition of a “controlled
substance offense” such that a conviction for
violation of this section of the Texas Health and
Safety Code could be used to enhance a defendant’s
offense level pursuant to U.S.S.G. §4B1.1. Ford was
not reversed until the Fifth Circuit Court of Appeals
rendered its opinion in United States v. Tanksley,
848 F.3d 347, on January 18, 2017.
Accordingly, when Movant’s initial PSR was
issued on May 19, 2015, see DE 52, and when he was
sentenced on June 8, 2015, see DE 65, the Fifth
Circuit Court of Appeals’ decision in Ford was still
good law and sentencing counsel’s alleged failure to
raise the claim now presented was not objectively
unreasonable. Additionally, because the nowpresented argument was not likely to succeed,
counsel’s failure to raise the claim was not
prejudicial. Furthermore, because raising a claim
contrary to the then-current state of the law was not
objectively unreasonable and not likely to succeed,
appellate counsel’s alleged failure to raise the claim
in Movant’s direct appeal in July or August of 2015,
almost a year prior to Mathis and eighteen months
prior to Tanksley, does not constitute ineffective
assistance of appellate counsel.
CONCLUSION
Movant is not entitled to relief based on the
holdings of United States v. Mathis and United

A18
States v. Hinkle. Movant was not denied his right to
the effective assistance of counsel.
CERTIFICATE OF APPEALABILITY
An appeal may not be taken to the court of
appeals from a final order in a proceeding under
section 2255 “unless a circuit justice or judge issues
a certificate of appealability.” 28 U.S.C. §
2253(c)(1)(A). Pursuant to Rule 11 of the Federal
Rules Governing Section 2255 Proceedings, the
District Court must issue or deny a certificate of
appealability when it enters a final order adverse to
the movant.
A certificate of appealability may issue only if a
movant has made a substantial showing of the
denial of a constitutional right. 28 U.S.C. §
2253(c)(2). The Supreme Court fully explained the
requirement associated with a “substantial showing
of the denial of a constitutional right” in Slack v.
McDaniel, 529 U.S. 473, 484 (2000). In cases where
the Court rejects a movant’s constitutional claims on
the merits, “the petitioner must demonstrate that
reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or
wrong.” Id.
When a district court denies a habeas
petition on procedural grounds without
reaching the petitioner’s underlying
constitutional claim, a COA should issue
when the petitioner shows, at least, that
jurists of reason would find it debatable
whether the petition states a valid claim of
the denial of a constitutional right and that

A19

Id.

jurists of reason would find it debatable
whether the district court was correct in its
procedural ruling.

In this case, reasonable jurists could not debate
the denial of Movant’s section 2255 motion on
substantive or procedural grounds, nor find that the
issues presented are adequate to deserve
encouragement to proceed. Miller El v. Cockrell, 537
U.S. 322, 327 (2003), citing Slack, 529 U.S. at 484).
Thus, a certificate of appealability shall not be
issued.
Accordingly,
IT IS ORDERED that Movant Francisco
Rodriguez-Castro’s Amended Motion to Vacate, Set
Aside, or Correct Sentence Under 28 U.S.C. § 2255
[DE 93] is DENIED;
IT IS FURTHER ORDERED that Movant’s
Motion to Vacate Under 28 U.S.C. § 2255 [DE 85],
which seeks relief pursuant to the Supreme Court’s
decision in Johnson v. United States, 135 S. Ct. 2552
(2015), is DENIED for the reasons stated in the
Court’s order at Docket Entry 94.
IT IS FURTHER ORDERED that Movant’s
Amended Motion to Correct Sentence Pursuant to 28
U.S.C. § 2255 [DE 93] is DISMISSED as superseded
by the section 2255 motion at Docket Entry 93.
IT IS FINALLY ORDERED that a certificate of
appealability is DENIED.
SIGNED this 26th day of October, 2017.
/s/
ROBERT JUNELL
SENIOR U.S. DISTRICT JUDGE

A20
UNITED STATES DISTRICT COURT
for the WESTERN DISTRICT TEXAS
Case No. 7:15CR-27-1
United States of America, Plaintiff,
v.
Francisco Rodriguez-Castro, Movant.
FCI Bastrop, TX USM #56468-280
INMATE FILING
MOTION for NEW COUNSEL
MOTION for LEAVE to PROCEED in FORMA
PAUPERIS
Comes now the Movant, Defendant in the above
criminal matter, who does hereby on his own Pro Se
and in the interest of justice move this Court for an
Order for New Counsel and Leave to Proceed in
Forma Pauperis in support of his Motion Under 28
U.S.C. §2255 and does for these reasons under
authority of Federal Rules of Criminal Procedure 44,
Title 18 U.S.C. §3006A (Criminal Justice Act), and
Under Title 28 U.S.C. §1915:
I. The Movant is a federal inmate at FCI Bastrop,
Texas.
II. The Movant has filed a "protective petition" to
stay and abey his collateral appeal pursuant to 28
U.S.C. §2255 and does now forward three copies of a
completed Motion Under §2255.
III. The Movant has a need for impartial new
counsel to be assigned as his most recent attorney-of-

A21
record has ceased communication with-him and
failed to return a deposit of funds.
IV. The Movants cause for relief under §2255 is
based upon the retroactive application of law
pursuant to the ‘Johnson-Welch’ decision in years
2015 and 2016 by the Supreme Court of the U.S.
V. The Movant attests this motion for new counsel
and to proceed in forma pauperis is a judicious
request and therefore prays for an affirmative order
from the Court.
By Francisco Rodriguez-Castro, Movant
/s/
(18 USC §1621)
I declare under penalty of perjury the foregoing
motion is true, correct, and I have personal
knowledge. Executed 7/7/16. (28 USC § 1746)

A22
U.S. Const. amend. V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia,
when in actual service in time of War or public
danger; nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb; nor
shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor
shall private property be taken for public use,
without just compensation.
28 U.S.C. § 2255
(a)A prisoner in custody under sentence of a court
established by Act of Congress claiming the right to
be released upon the ground that the sentence was
imposed in violation of the Constitution or laws of
the United States, or that the court was without
jurisdiction to impose such sentence, or that the
sentence was in excess of the maximum authorized
by law, or is otherwise subject to collateral attack,
may move the court which imposed the sentence to
vacate, set aside or correct the sentence.
(b)Unless the motion and the files and records of the
case conclusively show that the prisoner is entitled
to no relief, the court shall cause notice thereof to be
served upon the United States attorney, grant a
prompt hearing thereon, determine the issues and
make findings of fact and conclusions of law with
respect thereto. If the court finds that the judgment

A23
was rendered without jurisdiction, or that the
sentence imposed was not authorized by law or
otherwise open to collateral attack, or that there has
been such a denial or infringement of the
constitutional rights of the prisoner as to render the
judgment vulnerable to collateral attack, the court
shall vacate and set the judgment aside and shall
discharge the prisoner or resentence him or grant a
new trial or correct the sentence as may appear
appropriate.
(c)A court may entertain and determine such motion
without requiring the production of the prisoner at
the hearing.
(d)An appeal may be taken to the court of appeals
from the order entered on the motion as from a final
judgment on application for a writ of habeas corpus.
(e)An application for a writ of habeas corpus in
behalf of a prisoner who is authorized to apply for
relief by motion pursuant to this section, shall not be
entertained if it appears that the applicant has
failed to apply for relief, by motion, to the court
which sentenced him, or that such court has denied
him relief, unless it also appears that the remedy by
motion is inadequate or ineffective to test the
legality of his detention.
(f)A 1-year period of limitation shall apply to a
motion under this section. The limitation period
shall run from the latest of—
(1)the date on which the judgment of conviction
becomes final;
(2)the date on which the impediment to making a
motion created by governmental action in violation
of the Constitution or laws of the United States is
removed, if the movant was prevented from
making a motion by such governmental action;

A24
(3)the date on which the right asserted was
initially recognized by the Supreme Court, if that
right has been newly recognized by the Supreme
Court and made retroactively applicable to cases
on collateral review; or
(4)the date on which the facts supporting the claim
or claims presented could have been discovered
through the exercise of due diligence.
(g)Except as provided in section 408 of the
Controlled Substances Act, in all proceedings
brought under this section, and any subsequent
proceedings on review, the court may appoint
counsel, except as provided by a rule promulgated by
the Supreme Court pursuant to statutory authority.
Appointment of counsel under this section shall be
governed by section 3006A of title 18.
(h)A second or successive motion must be certified
as provided in section 2244 by a panel of the
appropriate court of appeals to contain—
(1)newly discovered evidence that, if proven and
viewed in light of the evidence as a whole, would be
sufficient to establish by clear and convincing
evidence that no reasonable factfinder would have
found the movant guilty of the offense; or
(2)a new rule of constitutional law, made
retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable.
U.S.S.G. § 4B1.1
a) A defendant is a career offender if (1) the
defendant was at least eighteen years old at the time
the defendant committed the instant offense of
conviction; (2) the instant offense of conviction is a

A25
felony that is either a crime of violence or a
controlled substance offense; and (3) the defendant
has at least two prior felony convictions of either a
crime of violence or a controlled substance offense.
(b) Except as provided in subsection (c), if the offense
level for a career offender from the table in this
subsection is greater than the offense level otherwise
applicable, the offense level from the table in this
subsection shall apply. A career offender’s criminal
history category in every case under this subsection
shall be Category VI.
Offense Statutory Maximum

Offense
Level*

(1) Life

37

(2) 25 years or more

34

(3) 20 years or more, but less than 25
32
years
(4) 15 years or more, but less than 20
29
years
(5) 10 years or more, but less than 15
24
years
(6) 5 years or more, but less than 10
years

17

(7) More than 1 year, but less than 5
12.
years
*If an adjustment from §3E1.1 (Acceptance of
Responsibility) applies, decrease the offense level by
the number of levels corresponding to that
adjustment.
(c) If the defendant is convicted of 18 U.S.C. § 924(c)
or § 929(a), and the defendant is determined to be a

A26
career offender under subsection (a), the applicable
guideline range shall be determined as follows:
(1) If the only count of conviction is 18 U.S.C.
§ 924(c) or § 929(a), the applicable guideline range
shall be determined using the table in subsection
(c)(3).
(2) In the case of multiple counts of conviction in
which at least one of the counts is a conviction other
than a conviction for 18 U.S.C. § 924(c) or § 929(a),
the guideline range shall be the greater of—
(A) the guideline range that results by adding the
mandatory minimum consecutive penalty required
by the 18 U.S.C. § 924(c) or § 929(a) count(s) to the
minimum and the maximum of the otherwise
applicable guideline range determined for the
count(s) of conviction other than the 18 U.S.C.
§ 924(c) or § 929(a) count(s); and
(B) the guideline range determined using the table
in subsection (c)(3).
(3) Career Offender Table for 18 U.S.C. § 924(c) or
§ 929(a) Offenders
Guideline Range for the 18
§3E1.1 Reduction U.S.C.
§ 924(c) or § 929(a) Count(s)
No reduction

360–life

2-level

reduction 292–365

3-level reduction

262–327.

